                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 1-12050019                                                                     Page 1 of 1



         We received allegations 1 that (i) employees on an NSF award 2 to a university 3 were conducting
         research on matters involving foreign science and technology that were outside the scope of the
         award, 4 and (ii) the PI employed his wife as part of the award and paid her salary from award
         funds .5

         We found no credible evidence of research on foreign matters that exceeded the domestic scope
         of the award. The allegation held no credibility. There is no indication that these researchers had
         steered research in the direction of science and technology involving their horne country.

         We also determined that NSF program officials were aware of the employment of the PI's wife
         as part of the award. Furthermore, the university' s policies permit employment of relatives,
         subject to controls on supervision and compliance with applicable conflicts of interest disclosure
         policies.6 Given the transparency about the wife's role in the proposal and with the program
         officer, we found no basis to believe that the university' s policies had been circumvented.

         This investigative case is closed with no further action taken.




NSF OIG Form 2 (11102)
